Ti

@OCKLE

2311 Douglas Street l ief E-Mail Address:
a
Omaha, Nebraska 68102-1214 L € & B rie 9 3 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-631

WILLIAM P. BARR, ATTORNEY GENERAL; FEDERAL
COMMUNICATIONS COMMISSION, PETITIONERS

v.
AMERICAN ASSOCIATION OF
POLITICAL CONSULTANTS, INC., ET AL.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 2nd day of March, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF FOR RETAIL LITIGATION CENTER, INC. AND
NATIONAL RETAIL FEDERATION AS AMICI CURIAE SUPPORTING NEITHER PARTY in the above entitled case. All
parties required to be served have been served by third-party commercial carrier for delivery within 3 calendar days.
Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
DEBORAH R. WHITE JOSEPH R. PALMORE
KATHLEEN MCGUIGAN Counsel of Record
RETAIL LITIGATION SAMUEL B. GOLDSTEIN
CENTER, INC. MORRISON & FOERSTER LLP

99M St. SE, Suite 700
Washington, DC 20003

STEPHANIE A. MARTZ
NATIONAL RETAIL FEDERATION
1101 New York Ave. NW,

Suite 1200
Washington, DC 20005

2000 Pennsylvania Ave. NW
Washington, DC 20006
(202) 887-6940
JPalmore@mofo.com

TIFFANY CHEUNG
MORRISON & FOERSTER LLP
425 Market St.

San Francisco, CA 94015

Counsel for Amici Curiae

Subscribed and sworn to before me this 2nd day of March, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

Se) Kence 0 ona One, Oh

Notary Public

My Comm. Exp. September 5, 2023

 

 

Affiant 39519
SERVICE LIST

Counsel for Petitioners:

Noel J. Francisco

U.S. Department of Justice
Room 5616

950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
202-514-2217

Counsel for Respondents:

Roman Martinez

Latham & Watkins LLP
555 Eleventh Street, NW
Washington, DC 20004
roman.martinez@lw.com
202-637-3377
